                            OFFICE OF THE INSPECTOR GENERAL
                            CORPORATION FOR NATIONAL AND
                                  COMMUNITY SERVICE




                              PRE-AUDIT SURVEY OF THE
                          COLORADO GOVERNOR'S COMMISSION
                               ON COMMUNITY SERVICE

                                  OIG Audit Report Number 0 1-25
                                        December 6,2000




                                             Prepared by:

                                           KPMG LLP
                                        2001 M Street N.W.
                                       Washington, DC 20036

                               Under CNS OIG MOU # 98-046-5003
                                  With the Department of Labor
                                  DOL Contract # 5-9-G-8-0022
                                       Task # B9GOV203




This report was issued to Corporation management on April 27, 2001. Under the laws and regulations
governing audit follow up, the Corporation must make final management decisions on the report's findings
and recommendations no later than October 24, 2001, and complete its corrective actions by April 27,
2002. Consequently, the reported findings do not necessarily represent the final resolution of the issues
presented.
                                                                                             CORPORATION

                                Office of Inspector General                                  FOR NATIONAL
                      Corporation for National and Community Service

                               Pre-Audit Survey of the
                 Colorado Governor's Commission on Community Service
                           OIG Audit Report Number 01-25


Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements of the Act, the Corporation awards
approximately two-thirds of its AmeriCorps StateINational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.
Thus, state commissions play an important role in the oversight of AmeriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility. However,
the Corporation lacks a management information system that maintains comprehensive information on
its grants including those to state commissions and subgrantees. Moreover, although the Corporation
began state commission administrative reviews in 1999, the Corporation, historically, has not carried
out a comprehensive, risk-based program for grantee financial and programmatic oversight and
monitoring. It is also unlikely that AmeriCorps programs are subject to compliance testing as part of
state-wide audits under the Single Audit Act due to their size relative to other state programs.
Therefore, CNS OIG has initiated a series of pre-audit surveys intended to provide basic information on
the state commissions' operations and funding. The surveys are designed to provide a preliminary
assessment of the commissions' pre-award and grant selection procedures, fiscal administration, and
monitoring of subgrantees (including AmeriCorps Member activities and service hour reporting).
Recommendations for future audit work consider the pre-audit survey results, known audit coverage,
the amount of funding, and other risks. For each survey, we also issue a report to the state commission
and to the Corporation communicating the results and making recommendations for improvement, as
appropriate.
We engaged KPMG LLP to perform the pre-audit survey of the Colorado Governor's Commission on
Community Service. Based on the limitedproceduresperformed, KPMG concluded that the Commission
administers an open, competitiveprocess to select nationalservicesubgrantees and that the Commission
has established certain policies andproceduresfor itsfiscal administration and subgrantee monitoring.
However, their report recommends improvements in all three areas. KPMG also recommends
Corporation follow-up to ensure that appropriate corrective actions are implemented and that OIG
perform a full-scope audit of CNS funding for program years 1994-95 through 1996-97 and more
limited procedures for program years 1997-98 through 1999-2000.




                                                                                         Inspector General
                                                                                         1201 New York Avenue, NW
                                                                                         Washington, DC 20525
CNS OIG reviewed the report, with which we concur, the work papers supporting its conclusions, and
responses to the report by the Commission and CNS. The Commission's response (Appendix C)
generally disagrees with the report and characterizes certain information provided to KPMG during the
survey as incorrect. As described on pages 4 and 5, where the Commission provided revised
information, KPMG was able to change the report. The Corporation's response (Appendix D) indicates
that it agrees with some of the report's findings and disagrees with others.
                                       Pre-Audit Survey of the
                        Colorado Governor's Commission on Community Service
                                          Table of Contents



RESULTS IN BRIEF.......................................................................................................................
                                                                                                                                   1

BACKGROUND .............................................................................................................................
                                                                                                                                   2

OVERVIEW OF THE COLORADO COMMISSION ................................................................ 3

OBJECTIVES. SCOPE. AND METHODOLOGY ...................................................................                             3

FINDINGS AND RECOMMENDATIONS ....................................................................................
                                                                                                              5

APPENDIX A. COMMISSION FUNDING: 1994-95 THROUGH 1999-2000 .........................A .1

APPENDIX B. DETAILED ENGAGEMENT OBJECTIVES AND
                                                                                                                           B .1
   METHODOLOGY ................................................................................................................

APPENDIX C. COLORADO GOVERNOR'S COMMISSION ON COMMUNITY
   SERVICE RESPONSE .........................................................................................................
                                                                                                                          C .1

                    .                                                                                   D .1
APPENDIX D CORPORATION RESPONSE ...........................................................................
             2001 M Street, N.W
             Washington, D.C. 20036




December 6,2000



Inspector General
Corporation for National and Community Service:

At your request, KPMG LLP (KPMG) performed a preaudit survey of the Colorado Governor's
Commission on Community Service (the Commission). The primary purpose of this survey was
to provide a preliminary assessment of:

   the adequacy of the pre-award selection process;
   the fiscal procedures at the Commission; and
   the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
   Member activities and service hours and program accomplishment reporting.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Results in Brief

Based on the results of the limited procedures performed, we have made the following
preliminary assessments regarding the Commission's systems for administering its AmeriCorps
grants:

    The Commission currently administers an open, competitive process to select national
    service subgrantees. However, the Commission's pre-award selection process does not
    include adequate procedures to review an applicant's financial and management systems,
    such as a review of the applicant's Office of Management and Budget (OMB) Circular A-
    133 audit reports, when applicable, and documentation describing the applicant's grant
    accounting procedures and systems.

    The Commission has established control policies and procedures to administer the
    Corporation's grant funds. However, the Commission could not provide documentation to
    support its financial reporting for program years prior to 1997-98.

    The Commission has established certain procedures to evaluate and monitor subgrantees.
    However, the Commission does not have an adequate process to obtain, review and follow-
    up on the OMB Circular A-133 audit reports of its subgrantees. In addition, the Commission
    should improve its documentation of the specific procedures performed during site visits,
    items reviewed, and any necessary follow-up procedures that were performed.


                                                                        1

1111           KPMG LLP KPMG LLP a U S m l e d liab~lhty:lartnersnp s
               a member of KPMG International a S w s s assocation
The section below entitled Findings and Recommendations describes the weaknesses noted
above in further detail and addresses additional issues noted during the survey.

To date, the Commission's AmeriCorps grants have not been audited as a major program under
OMB Circular A- 133. Based on this information, our preliminary assessments, and the dollar
value of Corporation funding awarded to the Commission, we recommend the performance of a
full-scope audit for program years 1994-95 through 1996-97 and a limited-scope audit with a
focus on subgrantee monitoring for program years 1997-98 through 1999-2000.

Additionally, we recommend that the Corporation follow up with the Commission to determine
that appropriate corrective actions are put into place to address the conditions reported herein,
and that the Corporation consider these conditions in its future oversight and monitoring of the
Commission.

Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State Commissions, nonprofit entities and tribes and territories to assist in the creation of full
and part time national and community service programs. Through these grantees, AmeriCorps
Members perform service to meet the educational, human, environmental, and public safety
needs throughout the nation, especially addressing those needs related to poverty. In return for
this service, eligible Members may receive a living allowance and post service educational
benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps State/National
funds to State Commissions. State Commissions are required to include 15 to 25 voting
Members. Each Commission has a responsibility to develop and communicate a vision and ethic
of service throughout its State.

The Commissions provide AmeriCorps funding to approved applicants for service programs
within their states and are responsible for monitoring these subgrantees' compliance with grant
requirements. The Commissions are also responsible for providing training and technical
assistance to AmeriCorps State and National Direct programs and to the broader network of
service programs in the state. The Commissions are prohibited from directly operating national
service programs.

The Corporation's regulations describe standards for financial management systems that must be
maintained by State Commissions. The standards require, in part, that the State Commissions
maintain internal control that provide for accurate, current, and complete disclosure of the
financial and programmatic results of financially assisted activities, and provide effective control
and accountability for all grant and subgrant cash, real and personal property, and other assets.
Overview of the Colorado Commission

The Colorado Governor's Commission on Community Service, located in Denver, Colorado, has
received AmeriCorps grant funds from the Corporation for National and Community Service
since program year 1994-95. The Commission originated as part of the Governor's Office and
was subsequently transferred to the Colorado Department of Local Affairs. In January 1998, the
Commission was transferred again to the Colorado Community College System (CCCS), where
it currently resides. The Commission has three employees, including an Executive Director and
two program officers. Since program year 1997-98, CCCS has provided financial and
accounting support to the Commission. The Executive Director and one of the program officers
have been with the Commission since 1996. The tenure of these two key positions and the
outsourcing of the accounting function to CCCS have contributed to the Commission's improved
financial management of Corporation grants.

As part of CCCS, the Commission is annually subject to an OMB Circular A-133 audit
performed by the Colorado State Auditors' Office. However, the Corporation's grants have
never been tested as a major program.

The Commission provided us with the following information for all program years:

                                                                         Number of
                                                                         Subgrantees
                             Expenditures of         Number of         Subject to A-133
         Program Y e g        Corporation            Subgrantees           Audits*
                                Funding




*   Determination is based solely on dollar value of federal awards passed through the
    Commission for each program year. To make this determination in accordance with OMB
    requirements applicable at the time, a $25,000 threshold was used for program years 1994-95
    and 1995-96, and a $300,000 threshold was used for all subsequent years. Remaining
    subgrantees could be subject to an OMB Circular A- 133 audit if they received additional
    federal grant funds from other sources.

Appendix A contains more detailed information on funding received from the Corporation
during program years 1994-95 through 1999-2000.

Objectives, Scope, and Methodology

We were engaged by the Office of the Inspector General, Corporation for National and
Community Service, to provide an assessment of the systems and procedures in place at the
Commission for administering its AmeriCorps grants and for monitoring the fiscal activity of
subgrantees. The primary purpose of this pre-audit survey was to provide a preliminary
assessment ofi

   the adequacy of the pre-award selection process;
   the fiscal procedures at the Commission; and
   the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
   Member activities and service hours and program accomplishment reporting.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Our survey included the following procedures:

   reviewing applicable laws, regulations, grant provisions, the Corporation's State
   Administrative Stanclards Tool, and other information to gain an understanding of legal,
    statutory and programmatic requirements;

    reviewing OMB Circular A-1 33 reports and current program year grant agreements for the
    Commission:

    obtaining information from Commission management to complete flowcharts documenting
    the hierarchy of AmeriCorps grant funding for program years 1994-95 through 1999-2000;
    and

    performing the procedures detailed in Appendix B over the Commission's internal control,
    selection of subgrantees, administration of grant funds, and evaluation and monitormg of
    grants.

As part of the procedures performed, we documented and tested internal control in place at the
Commission using inquiries, observations, and examination of a limited sample of source
documents. Finally, we summarized the results of our work to develop the findings and
recommendations presented in this report. We discussed all findings with Commission
management during an exit conference on December 8,2000.

Our procedures were performed in accordance with Govemnzent Auditing Standards issued by
the Comptroller General of the United States. We were not engaged to, and did not, perform an
audit of any financial statements, and the procedures described above were not sufficient to
express an opinion on internal control at the Commission, or on its compliance with applicable
laws, regulations, contracts and grants. Accordingly, we do not express an opmion on any such
financial statements, or on the Commission's internal control or compliance. Had we performed
additional procedures, other matters might have come to our attention that would have been
reported to you.

We provided a draft of this report to the Commission and the Corporation. The Commission's
and the Corporation's responses to our findings and recommendations are included as Appendix
C and D respectively. We have corrected the references to program year dates as provided in the
Commission's response and added clarifying language to our findings and recommendations to
the extent we considered it necessary. The information included on page 3 and in Appendix A
was compiled from information provided to us by the Commission's grant accountant as noted
on page A. 1. Since no correcting information was provided in the Commission's response, no
changes have been made to this data.

We continue to believe our recommendations presented in the Findings and Recommendations
section of this report, if implemented, will result in improvements to internal controls over
Commission operations. Accordingly, no additional changes were made to the report.

Findings and Recommendations

Selecting Subgrantees

According to 45 CFR Section 2550,80(b)(l), "Each State must administer a competitive process
to select national service programs to be included in any application to the Corporation for
funding."

The Commission administers an open, competitive process to select national service subgrantees.
In competitive application years, the Commission advertises funding availability through mailing
lists, newspapers and newsletters. In addition, selection officials sign conflict of interest
statements annually, receive an instruction package, and use a standard form to evaluate each
applicant. However, we identified the following areas for improvement within the selection
process.

        Pre-Award Risk Assessment Procedures Need Improvement

The Commission's pre-award selection process does not include procedures to review specific
aspects of an applicant's financial and management systems (e.g., capabilities of accounting
system to provide necessary grant information and process for complying with OMB Circular A-
133). Such procedures are necessary to help ensure, prior to awarding grant funds, that
applicants have adequate systems and procedures in place to financially administer and manage a
federal program.

        Lack of Supporting Documentation for Funding Decisions Prior to Program Year
        1996-97

For program years prior to 1996-97, the Commission was unable to locate documentation to
support its funding decisions. The Commission asserts that the lack of documentation resulted
from the transfer of the Commission in 1998 from the Colorado Department of Local Affairs to
CCCS. At the time of the transfer, a significant amount of documentation was left with the
Colorado Department of Local Affairs and has most likely been subsequently filed with the
Colorado Division of State Archives.

Although responsibility for the Commission's administration has been transferred among state
agencies over time, the Commission continues to be responsible for maintaining adequate
records for all program years because none of its Corporation grants have been closed. In
accordance with 45 CFR Section 2541.420, commissions are required to retain records for three
years from the close of a grant.
       Lack of Written Grievance Procedures

The Commission does not have written grievance procedures. These procedures are required by
45 Section CFR 2540.230 and should include dispute resolution programs, such as mediation,
facilitation, assisted negotiation and neutral evaluation.

       Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its
subgrantee selection process as follows:

   Develop and implement pre-award procedures to review each applicant's financial and
   management systems. These procedures should include review of the applicant's OMB
   Circular A-1 33 audit reports, when applicable, and documentation describing the applicant's
   grant accounting procedures and systems.
   Develop and implement written grievance procedures.

In addition, we recommend that the Commission work w ~ t hthe Corporation to close all
appropriate grants and to submit final Financial Status Reports (FSRs) for those grants. The
Commission should also locate and be able to retrieve the necessary documentation to support
the proper administration of Corporation grants for three years after the close of the related
grants.

Administering Grant Funds

As part of the grant administrat~onprocess, "Grantees are responsible for managing the day-to-
day operations of grant and subgrant supported activities. Grantees must monitor grant and
subgrant supported activities to assure compliance with applicable Federal requirements and that
performance goals are being achieved. Grantee monitoring must cover each program, function
or activity" (45 CFR Section 2541.400(a)).

The Commission has developed and implemented procedures that are intended to provide
reasonable assurance that grant funds received from the Corporation are properly admmistered.
Procedures are in place to withhold funding payments if subgrantees do not submit FSRs timely;
to manage cash draw downs and disbursements to subgrantees; and to ascertain whether
subgrantees have met their matching requirements. However, we identified the following area
for improvement related to the Commission's grant administration process.

        Lack of Supporting Documentation for Finuncial Reporting Prior to Program Year
        1996-97

For program years prior to 1996-97, the Commission was unable to locate documentation to
support its financial reporting, including the allocation of funding between AmeriCorps
Competitive and AmeriCorps Formula grants and the amounts of state matching funds for the
Administrative grant. The Commission asserts that at the time of its transfer to CCCS, a
significant amount of documentation was left with the Colorado Department of Local Affairs and
has most likely been subsequently filed with the Colorado Division of State Archives.
As noted above, Commission grants have not been closed. Therefore, the Commission continues
to be responsible for maintaining adequate records to support claimed costs, is subject to an audit
of these grant funds, and could be held responsible for any questioned costs identified as part of
such audits. Implementing the recommendation made in the Selecting Subgrantees section will
help the Commission address this issue.

Evaluating and Monitoring Subgrantees

The Commission is responsible for monitoring subgrantee supported activities to assure
compliance with applicable Federal requirements and that performance goals are being achieved.
The Commission has established certain procedures to evaluate and monitor its subgrantees,
which include reviewing program and financial reports and scheduling annual site visits. During
these visits, Commission personnel use a standard site visit checklist to guide their inquiries and
communicate program strengths and weaknesses. any concerns or recommendations identified,
and any necessary follow-up to be performed. In addition, the Commission evaluates the
reasonableness of program accomplishments reported by the subgrantees in their progress reports
based on frequent communications, information obtained during site visits, and approved grant
objectives.

However, we identified the following areas for improvement related to the evaluation and
monitoring of subgrantees.

        Review of OhlB Circular A-133 Audit Reports

The Commission does not have an adequate process for obtaining and reviewing OMB Circular
A-1 33 audit reports for its subgrantees. When the Commission does obtain the reports, the
Commission does not document its review or any follow-up procedures performed. OMB
Circular A-133 Compliance Supplement, March 2000, Part 6 - Internal Control suggests that
review of and follow-up on subgrantees' audit reports is a key component of a program to
monitor compliance with federal grant requirements.

        Insuflficient Documentation to Support Procedures Performed during Site Visits

As noted above, Commission policy requlres the use of a standard checklist to document the
results of each site visit. However, we noted the following as part of our review:

    The Commission could not locate 1 of 13 checklists selected for testing (Mesa State College,
    program year 1997-98).
    The checklist uses a yeslno format with minimal space for narrative, and does not document
    if any follow-up was considered necessary during the visit.
    The Commission does not document the specific Member timesheets and files reviewed or
    the results of the review.
    The Commission does not verify selected Member timesheets against entry into the Web
    Based Reporting System (WBRS) to determine if hours accumulated and used on end of
    term forms are accurate.
    The Commission does not document (1) which operating sites (i.e., service locations) were
    visited, (2) its procedures to verify information in subgrantee progress reports, (3) its
    procedures to verify subgrantee financial reports (including reported match) against
    subgrantee accounting records, (4) the specific items reviewed as a part of these procedures,
    or (5) the results of the review.

As a result, a reviewer (e.g., supervisor) of the site visit checklist is not able to (1) assess if the
sample size selected was adequate and (2) review the same documentation if a question arose
about the results of the test. In addition, control weaknesses or instances of material non-
compliance related to the subgrantees' activities of which the Commission is not aware may
exist and may not be corrected.

        Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its
evaluation and monitoring of subgrantees as follows:

    Develop and implement procedures to obtain, review and retain subgrantee OMB Circular
    A- 133 audit reports. The Commission should document its review of these reports and any
    necessary follow-up procedures performed.
    Improve the documentation of its subgrantee site visits. Improvements should include
    documentation of the specific procedures performed, items reviewed, results found and any
    necessary follow-up performed. Although not specifically required by a law or regulation,
    including the items noted above in a standard monitoring tool enhances an organization's
    ab~lityto consistently evaluate key compliance and programmatic requirements, validate the
    results of its reviews, and ensure the completion of all monitoring steps at each subgrantee
    visited.

Other Matters

         Irnplenzentation of WBRS

Although the Commission has implemented WBRS, two of its subgrantees have experienced
technical problems with the system since implementation. As a result, the Commission is not
able to electronically submit aggregate FSRs to the Corporation or to review information for
these subgrantees on-line. The Commission continues to work with the Corporation to resolve
this issue. Therefore, no recommendation is required related to WBRS implementation.

         Composition o f Commission

The Commission does not currently have youth representation within its voting members. In
accordance with 45 CFR Section 2550.50(b)(6) the Commission's voting members should
include an individual between the ages of 16 and 25 who is a participant or supervisor of a
service program for school-age youth, or of a campus-based or national service program.
Currently, the Commission's youngest voting member is 28 years old.

         Commission StafJing

The Corporation-prepared August 2000 State Administrative Standards Report on the
Commission indicates that "over the past five years, the Commission has tripled the number of
programs it administers while the staff size has actually declined" (section 7.1.4.a.). The report
discusses the need for additional staff, including clerical support, to reduce the workload of
current staff.

During our on-site work, we noted that the Commission staff are qualified from a programmatic
perspective but lack significant financial experience. Although CCCS performs most
accounting-related tasks for the Commission, CCCS accounting personnel do not participate in
the review of grant applications or in site monitoring visits. As a result, financial risks or
noncompliance may not be adequately assessed. Our concerns about the financial background of
the Commission staff were discussed at the exit conference held on December 8,2000, and we
continue to believe that changes should occur to address these issues.



We recommend that the Commission:

    Work with the Governor to appoint a voting member who meets the requirements of 45 CFR
    Section 2550.50(b)(6).
    Ensure that personnel with financial experience are involved with the pre-award financial
    risk assessments recommended in the Selecting Subgrantees section.
    Augment its current staffing with an individual with financial experience, making one of the
    position's responsibilities the fiscal monitoring of subgrantees, or reach a formal agreement
    with CCCS that accounting personnel will accompany Commission staff on site monitoring
    visits.




This report is intended solely for the information and use of the Office of the Inspector General,
the management of the Corporation for National and Community Service, the management of the
Colorado Governor's Commission on Community Service, and the United States Congress and is
not intended to be and should not be used by anyone other than these specified parties.
                                  Commission Funding                           Appendix A

The table below and the funding charts on the following pages depict the Commission's
expenditures of Corporation funding over the past six program years. The information was
obtained from the Commission's records maintained by the grant accountant. For program years
1998-99 and 1999-2000, this information was agreed to the Commission's FSRs.

Funding Source
and Type              1994-95      1995-96        1996-97

CNS Formula
 Grant Funds                        $1,087,154    $1,139,974

CNS Competitive
 Grant Funds

CNS Learn and
 Serve Funds                           185,000       172,000

CNS Educational
 Only Awards

CNS PDAT Funds                         75,000         80,000

CNS Administrative
 Funds                                205,926        205,150

CNS Disability
 Funds                                  14,177

CNS Governor's
 Innovative Funds                     21 7,234

CNS America Reads
 Funds

CNS Promise Fellows
 Funds

State Matching
 Funds                      NIA           NIA           NIA




NIA -    The Commission was unable to provide this information. See related finding under the
         Administering Grant Funds section.
                                             Commission Funding                                       Appendix A




                                           Corporation for National Service

       Funding to the Colorado Governor's Commission on Community Service
                                     1994-95
                  I              -
            AmerlC'orps                                                                 4drnlnlstrat1on
            Formula and
            Cornpetltlbe
               Funds
             S889,140                                 55.797                               5184,321
            (see Note I )




          L?i
               Match




                Total CNS Funds Retained by the Commission $190,118

                                     Total Commission Matching Funds - N/A


I
I
                      Total CNS Funds Awarded to Subgrantees $889,149



                      v                                                              v
               AmeriCorps                                                      AmeriCorps
                 Formula:                                                      Compet~tlve:
               (see Note I )                                                   (see Note 1 )

                Subgran tee                                                     Subgrantee
                  Match                                                           Match
                   NIA                                                             N'A

              Total ti of SUBS                                            Total ti of SUBS
                       3                                                           2

              Total   tf    of S ~ t e s                                      Total # of S ~ t e s
                           7                                                         2




    N I A - The Commission was unable to provide this information.
    Note 1: Using the records maintained at the Commission, Commission personnel cannot
    split funds between AmeriCorps Formula and AmeriCorps Competitive grants. See
    related finding under Administering Grant Funds.
                                         Commission Funding                                               Appendix A



                                       Corporation for National Service

   Funding to the Colorado Governor's Commission on Community Service
                                 1995-96

    I
Amer~Corps                Learn and              PDAT
                                                                                   I         I
                                                                                          D~sab~l~ty
                                                                                                                    I
Formula and                 Serve                Funds                                     Funds                  Funds
Compet~t~be                Funds
   Funds
 51.087,153                $ I8j.000            575.000                                                         5205.926
(see Note I )




-?
  Match                      Match




                   Total CNS Funds Retained by the Commission $295,103

                                   Total Commission Matching Funds - NIA

                     Total CNS Funds Awarded to Subgrantees $1,489,388


                  v                             v                         v                             v
             \menCorps                      Arner~Corps              I.ram and                     Governor's
               Formula                      Compet~t~ve                 Serve                      Innovatwe
             (see Note 1)                   (see Note I )            $1 85,000                      5217.234

              Subgrantee                     Subgrantee              Sub,orantee                   Subgrantee
                Match                          Match                   Match                         Match
                  N/A                           N 'A                     N '.A                        NIA

            Total f of SUBS                Total # of SUBS         Total d of SUBS               Total it of SUBS
                    4                               I                       I                            1

            Total # of S ~ t e s           Total it of S ~ t e s   Total d of S ~ t e s          Total # of S ~ t e s
                   10                              I                     NIA                             4
        -




N/A - The Commission was unable to provide this information.
Note 1 : Using the records maintained at the Commiss~on,Commission personnel cannot spl~t
funds between AmeriCorps Formula and AmeriCorps Competitive grants. See related finding
under Admin~sterrngGrant Funds.
                                       Commission Funding                                         Appendix A


                                     Corporation for National Service

       Funding to the Colorado Governor's Commission on Community Service
                                     1996-97

                 I
           .\~ner~Corps                    Learn and                          PL) \T            Adrn~nlstratlon
          Formula and                        Sene                             t undb                Funds
          ('onipet~ttve                     Fundr
               F-imds
           5 1 ,139.974                    51 72.000                          $80.000              5205.1 50
          (bee Note 1 )
                                                                                                       klatch



        k-
             Match                          Match                                                       N 'A
                                             50
                            *

         *    Total CNS Funds Retained by the Commission $285,150

                            Total Commission Matching Funds - N/A

I
I
                 Total CNS Funds Awarded to Subgrantees $1,3 1 1,974                                              \
                                                                                                                  I




                     v                                             v                             v
              Arner~Corps                                Amer~Corps                        Learn and
                Formula                                  Cornpet~t~ve                        Serve
              (see Note I )                              (see Note 1 )                     5172,000

               Subgrantee                                Subgrantee                       Subgrantee
                 Match                                     Match                            Match
                  Nj A                                         NiA                              NI h

            Total # of SUBS                            Total   3   ot'SUBS              Total    of SI !BS
                    4                                              I                              I

             Total it of S ~ t e s                     Total @ of S ~ t e s             Total Y oTS~tes
                     10                                       I                              N/A




    N i A - The Commission was unable to provide this information.
    Note 1: Using the records maintained at the Commission. Commission personnel cannot split
    funds between AmeriCorps Formula and AmeriCorps Competitive grants. See related finding
    under rldmrnisterrng Grant Fzlnds.
                                           Commission Funding                                          Appendix A



I                                        Corporation for National Service                                            I
       Funding to the Colorado Governor's Commission on Community Service
                                                          1997-98
                                             I              -   -           1         I                     I

    Anier~Corps             Amer~Corps       Learn and                  PDAT       D~sab~l~ty       Adm~nlstratton
     Formula                Compet~t~ve        Serve                    Funds       Funds              Funds
      Funds                   Funds           Funds
     $905.503                9969,072        9288,500                   $82.1 12    $1.004               5 149.002

      Match                    Match          Match                                                       Match
       $0                       $0             $0                                                         NA

                                                            -
                                     *           *
I                 Total CNS Funds Retained by the Commission $232,118

                               Total Commission Matching Funds - N/A

                    Total CNS Funds Awarded to Subgrantees $2,163,075

                                                                                                     *
                                                                                                Learn and
                 Formula                                                                          Sene
                 $905,503                                                                       $288,500

                Subgrantee                                 Subgrantee                          Subgrantee
                  Match                                      Match                               Match
                   N;.4                                       Nl.4                                N, A

              Total ri of SUBS                        Total Y of Sl!BS                       Total f of SlJBS
                       4                                            4                                 I

              Total # of S ~ t e s                       Total t! of S ~ t e s               Total f of i ~ r e s
                      6                                             9                              NIA




    NIA - The Commission was unable to provide t h ~ information.
                                                     s



                                                             A.5
                                                             Commission Funding                                                        Appendix A

       F




                                                       Corporation for National Service

                        Funding to the Colorado Governor's Commission on Community Service
                                                       1998-99
           I                   I                     I           I           I           I

                                                                 PDAr                    Educatlonal                                   :\drn~nlstrat~on
      Formula                                                    Funds                     .-\ward                   Reads                  Funds
       Funda                                        Funds                                   Only
      8923.280                                    9 150,000      '375.399                  Funds                    '3191.532               S I X0.000
                                                                                          S3O.ijO
                                                   klatch                                                                                    Match
                                                                                                                                            SlOl.886




                                                                                            *
I                                  Total CNS Funds Retained by the Commission $258,399

                                             Total Commission Matching Funds $1 91,886

                                    Total CNS Funds Awarded to Subgrantees $2,295,663



                                                                L                                L
       ArnerlC'o~ps
        FOI-rnula
        S923.289
                                                                     Learn and
                                                                       Serve
                                                                     5 156.000
                                                                                                   Educatlonal
                                                                                                   Awards Only
                                                                                                     530.750
                                                                                                                                I      Arner~ca
                                                                                                                                        Reads
                                                                                                                                       Sl9l.532

       Subgrantee                      Subgl-antee                  Subgrantee                         Subgrantee                     Subgrantee
         Match                           Match                        Match                              Match                          klatch
          N A                             NIA                          N: A                               N/A                            N ',A

     rota1          of SI-'BS        lotal   #   of SUBS         rota1 n ot SUBS                  Total # of SUBS                   l otal n of SUBS
                    4                            J                        I                               3                                   I

     Total     ii   of S ~ t e s     Total it of S ~ t e s        Total P of S ~ t e s            Total it of S ~ t e s             Total    oiS~tcs
                                             9                          NIA                               3                                 1




    NIA - The Commission was unable to provide this information.


                                                                         A.6
                                                           Commission Funding                                              Appendix A


                                                        Corporation for National Service

                            Funding to the Colorado Governor's Commission on Community Service
                                                         1999-2000



                                          1.ra1-n and                                Adrn~n~strat~or     Educational       !\met-~ca
                                            Sene                                        Funds             .A wards           Reads
                                            Funds                                                           Only             Funds
                                           582,457                                     $220,892           $36.088          5 1 10.961

                                              Match                                     Match
                                               SO                                      $209,817




    f                                           +                 f                       f                 f
                                                                                                                           I
                                                                                                                               f                      f
                                         Total CNS Funds Retained by the Commission $343,892

                                                 Total Commission Matching Funds $209,8 17

I
I
                                          Total CNS Funds Awarded to Subgrantees $1,888,158



            v                        v                          v                           v            -
                                                                                                         v                                 v               2




      Arner~Co~ps                Arner~Corps               Learn and                  Educat~onal             Arner~ca                  Prorn~se
       Folmula                   C'ornpet~twe                Serve                    Awards Only               Reads                    Fello\\s
       $639.422                   SO 14.228                 $82,457                    $36.088                $ 1 10,963                S105.000

        Subgrantee               Subgrantee                Subgrantee                   Subgrantee            Subgrantee                Subgrantee
          klatch                   Match                     Match                        Match                 Match                     Match


    Total tt of SUBS                                                                 Total it of SUBS                              Total    of SL'BS


    Total # o f S ~ t e s                                Total iof S ~ t e s          Total # of Sites                              Total # of S ~ t e s
                                                               NIA




          N/A - The Commission was unable to provide this information.


                                                                               A.7
                          Detailed Engagement Objectives
                                 and Methodology                                  Appendix B

Internal Control


Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the preparation
of reliable financial statements and Federal reports; (2) maintain accountability over assets; and
(3) demonstrate compliance with laws, regulations, and other compliance requirements.


In order to achieve the above objective, we identified the compliance requirements with a direct
and material effect on the Commission's AmeriCorps grant program, as follows: activities
allowed or unallowed and allowable costs; eligibility; matching; period of availability of
Corporation funds; suspension and debarment; subrecipient monitoring; and reporting by the
Commission to the Corporation. We then interviewed key Commission personnel to assess the
Commission's controls surrounding these requirements.

Selecting Subgrantees

Our objectives were to make a preliminary assessment:

    of the adequacy of the systems and controls utilized by the Commission to select national
    service subgrantees to be included in an application to the Corporation;

    as to whether the Commission evaluated the adequacy of potential subgrantee financial
    systems and controls in place to administer a Federal grant program prior to making the
    award to the subgrantees; and

    as to whether Commission involvement in the application process involved any actual or
    apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
determine if conflict of interest forms for each subgrantee applicant tested were signed by
selection officials annually and maintained by the Commission. Documentation, including
scorecards, evidencing the selection process of subgrantees through committees was also
reviewed.

Administering Grant Funds

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to oversee and monitor the performance and progress of funded subgrantees;
                          Detailed Engagement Objectives
                                 and Methodology                                Appendix B

   make a preliminary assessment as to whether the Commission's organizational structure and
   staffing level and skill mix are conducive to effective grant administration;

   make a preliminary assessment as to whether the Commission provided adequate guidance to
   subgrantees related to maintenance of financial systems, records, supporting documentation,
   and reporting of subgrantee activity;

   make a preliminary assessment of the adequacy of financial systems and documentation
   maintained by the Commission to support oversight of subgrantees and required reporting to
   the Corporation (including Financial Status Reports, progress reports, enrollment and exit
   forms, and change of status forms); and

   determine whether the Commission has procedures in place to verify the accuracy and
   timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports and progress
reports submitted by subgrantees, as well as Financial Status Reports submitted by the
Commission to the Corporation, to preliminarily assess the accuracy of submitted Financial
Status Reports and progress reports. We reviewed training schedules offered to subgrantees, staff
resumes, checklists and other such tools employed by Commission staff as aids.

We also preliminarily assessed whether the Commission has been able to fully implement the
Web Based Reporting System (WBRS).

Evaluating and Monitoring Subgrantees

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission, in conjunction with the Corporation, to implement a comprehensive, non-
    duplicative evaluation and monitoring process for their subgrantees;

    determine whether the Commission has an established subgrantee site visit program in place
    and make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    make a preliminary assessment of the adequacy of the Commission's procedures used to
    assess subgrantee compliance with Corporation regulations (e.g., those governing eligibility
    of Members, service hour reporting, prohibited activities, payment of living allowances to
    Members and allowability of costs incurred and claimed under the grants by subgrantees
    (including reported match));

    make a preliminary assessment of the adequacy of the Commission's procedures for
    obtaining, reviewing and following up on findings included in the subgrantee OMB Circular
    A- 133 audit reports, where applicable;
                         Detailed Engagement Objectives
                                and Methodology                               Appendix B

   determine whether program goals are established and results are reported and compared to
   these goals; and

   make a preliminary assessment of the adequacy of the procedures in place to evaluate
   whether subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We reviewed
the documentation to preliminarily assess the adequacy of the procedures performed by the
Commission to assess financial and programmatic compliance and related controls at the sites.
We also determined whether the Commission received and reviewed OMB Circular A-133 audit
reports from subgrantees.
                          GOVERNOR'S
                                  COMMISSION
                                           ON COMMUNITY
                                                      SERVICE
                          1391 North Speer Boulevard, Suite 600                        Appendix C
                          Denver, CO 80204
                          Ph: (303) 595- 1541
                          Fx: (720) 904-9738
                                                                                                               B ~ l lO ~ t e n s
                                                                                                                Governor



                          April 9, 2001

EXECUTIVE    DIRECTOR
Gregory J . Gelssler

COMMISSIO~XRS             Ms. Luise S. Jordan
Char:
Anna Mana Larsen          Office of Inspector General
Golden                    Corporation for National Service
Sister Allcia Cuaron      1201 New York Avenue, NW
Denver
                          Washington, DC 20425
Ilene Dibble
Englewood

William Gold
                          Dear Ms. Jordan:
Denver

Melinda Higgs             Enclosed herein please find the Colorado Governor's Commission on Community Service's
Denver                    response to the pre-audit survey draft report dated December 6, 2001 and transmitted by your
Valorie Jamison           office to the Commission for review and comment on March 12, 2001.
Aurora

John Keany                Sincerely,
Louisville

Herbert Koether
Denver

Denise Mund
Awada
                          f&?!i$(~
                          Gregory J. eis er

                          Executive Director
Jackie Norris
Denver

Wendell Pryor
Denver

Richard R a ~ n a l d ~
Denver
                          enc.
Terrence Rapoport
Denver

Lisa Rue
Berthoud

Jo Schantz
Golden

Bruce Cline
Ex-Officio
                    Colorado Governor's Commission on Community Service
                                         Response

The following comments are submitted in response to the findings of the Pre-Audit Survey of the Colorado
Governor's Commission on Community Service which commenced on Monday, October 30,2000. For the
record, it should be noted that the formal Exit Interview was held on Friday, December 6, 2000.
Subsequently, the Commission responded to additional requests for information from the auditors through
February 8,200 1. No further exit interview was held. The Cornrnission received a copy of the Draft Report
on March 13, 2001.

Sipnificant Issues of Note:
   The Draft Report incorrectly indicates the Commission was transferred to the Community Colleges of
   Colorado system in 1996. The Commission was not transferred to the Community Colleges of Colorado
    system until January 1998. The Commission was within the Department of Local Affairs throughout
    1996 and 1997. This is crucial in terms of understanding the Commission's access to information. The
   Governor's Commission on Community Service was originally established by Executive Order in
   December 1993by Governor Roy Romer and was housed within the Governor's Community Partnership
   Office. The Governor moved his Community Partnership Office into the Department of Local Affairs
    (DOLA) in 1994. The Governor's Commission was not, and is not, an independent agency within state
    government. With the Community Partnership Office's (including the Commission) move to the
    Department of Local Affairs, DOLA became the authorizing agency, and the departmental policy
    dictated that nothing was designated specifically to the Commission in t e r n of authority over the
    Commission's funding and activity. While the Commission was housed within DOLA, the Executive
    Director of the Commission did not have signature authority. Three different individuals held the office
    of Executive Director of the Commission from 1994 through 1996. The current Executive Director and
    one Program Officer were hired in 1996. In January 1998, Governor Roy Romer issued an Executive
    Order moving the Governor's Commission from the Department of Local Affairs into the Community
    Colleges of Colorado. Accounting records for the Commission prior to 1998 were retained by the
    Department of Local Affairs. When the Commission transferred from the Department of Local Affairs
    to the Community Colleges of Colorado, the Interagency Agreement stated that all balances would
    transfer to the Community Colleges of Colorado, but all activity of the Commission prior to the transfer
    would remain with the Department of Local Affairs. At the federal level, the Commission's line of credit
    was transferred with new passwords provided to the new legal entity being the Community Colleges of
    Colorado. The authorization for accessing CNS awards through HHS is only for the time frame from
    which the Community Colleges of Colorado took responsibility (January 1, 1998). Following the
    election of the current Governor, Bill Owens, the original Executive Order establishing the Commission
    and setting forth its responsibilities was rescinded and replaced by a new Executive Order which
    reorganized the Commission, its composition, and its responsibilities. Further, with that change in
    administration, records maintained by DOLA under the previously appointed cabinet member have likely
    been archived. The Draft Report states that "although responsibility of the Commission's administration
    has been transferred among state agencies over time, the Commission continues to be responsible for
    maintaining adequate records for all program years because none of its Corporation grants have been
    closed." However, the Commission is not an independent agency in and of itself. The state department
    in which a program, such as a Commission, is housed, is the responsible entity. Therefore, for the most
    part, DOLA has records from 1994 through 1997 and the Community Colleges of Colorado has records
    from 1998 to the present. That the Commission staff hired in 1996 have some records is fortunate
    happenstance.

    The dollar amounts provided throughout the report (table on page 3 as well as all figures in Appendix
    A) are not reflective of the information provided by the Commission to KPMG auditors. It is unclear
    whether the amounts included in the tables are supposed to be expenditures or awards, but either way
    the figures are incorrect. The Total Corporation Funding listed on page 3 are the same figures included
    in the tables and flowcharts in Appendix A. It is unclear where those numbers came from as they are
    not reflective of the Commission's accounts (neither awards nor expenditures) nor of the information
                                                  C.2
    provided to the auditors. For instance, the Commission received Governor's Innovative Funds in 1996-
    1997 and received Promise Fellows Funds in 1998-1999, yet neither of those awards (or expenditures)
    are included in the tables. Further, Appendix A states that the Commission personnel cannot split funds
    between ArneriCorps Formula and Competitive grants. This is incorrect. The Commission's accounts
    have always shown a split between Formula and Competitive grants for all program years. Further, the
    charts indicate NIA (defined as "the Commission was unable to provide this information") in almost all
    of the State Matching Funds categories. This is incorrect. The Commission provided KPMG with all
    relevant administrative match documentation. The Commission did not provide documentation on
    subgrantee match as that information is retained by the subgrantees. The Commission is unable to
    determine what amounts were used for each of the boxes in the subsequent flowcharts contained in
    Appendix A as the figures listed are neither reflective of awards nor of expenditures. In several
    instances, the numbers of "SUBS" and "Sites" is also incorrect.

    Because the numbers included in Appendix A as well as on page 3 are not reflective of the Commission's
    accounts nor of the information provided to the auditors, the Commission is unable to comment on the
    funding information contained in the Draft Report.

Findings and Recommendations:
Selecting Sub~rantees
1. Lack of Pre-Award Risk Assessments
    Response:
    The Draft Report states that the Governor's Commission on Community Service pre-award selection
    process does not include adequate procedures to review an applicant's financial and management
    systems. In fact, the Commission's selection process includes the following:
        An assessment of each applicant's written section on organizational capacity is performed in the
        application review process. This includes review of applicant's responses to questions related to
        sound programmatic and fiscal oversight (including information on how the program fits within the
        total operating budget of an organization, key staff, experience in administering federal grants,
        capacity to monitor their systems, sound budget for the project, etc.).
        Pre-award site visits are done only if there is a questionable risk. The Commission has conducted
        such visits and has elected not to fund organizations that do not have the capacity or systems in place
        to administer an ArneriCorps program.
        The Commission provides significant training and technical assistance to applicants as well as
        subgrantees on financial oversight.
        The Commission's contracting (award) process through the State of Colorado is quite thorough.

2. Lack of Supporting Documentation for Funding Decisions Prior to PY 1996-1997
Correction: The Commission did not transfer from the Department of Local Affairs to the Community
Colleges of Colorado until 1998 (not 1996).
    Response:
    While the Commission does not have in its possession copies of the actual applications considered for
    funding nor the individual score sheets rating the specific proposals for 1994-1995 and 1995-1996, the
    Commission's meeting minutes are maintained. The minutes include information such as the request
    for proposals, information on public hearings and outreach efforts, Commission priorities, funding and
    review timelines, application processes, review processes, scoring criteria, agendas for reviews, and the
    applications approved by the Commission which were subsequently submitted to the Corporation for
    National Service. Most programs funded in the 1995-1996 program year were renewals. All renewal
    funding documentation as well as Commission minutes were provided to KPMG.

3. Lack of Written Grievance Procedure
    Response:
    The Draft Report states that the Commission does not have written grievance procedures as required by
    45 CFR 2540.230. This finding is included in the "Selecting Subgrantees" section of the Draft Report.
    There are no applicable state laws relating to the need for a state entity to have written grievance
    procedures in relationship to that state entity selecting subgrantees. Rather, it is the Commission's
    understanding from Corporation Counsel that 45 CFR 2540.230 and the AmeriCorps Provisions indicate
    that "in the event that a sub-Grantee of a direct Grantee of the Corporation is no longer in existence, the
    direct Grantee will assume the responsibility of fulfilling the sub-Grant's obligation to process all
    grievances in accordance with 45 CFR 2540.230". While the Commission has always understood this,
    it never had a specific separate grievance procedure set up since the process that would have been
    followed had the need arisen was written out in 45 CFR 2540.230. To resolve this matter, however, the
    Commission has now adopted a written grievance procedure.

administer in^ Grant Funds
1. Lack of Supporting Documentation for Financial Reporting Prior to PY 1997-1998
    Response:
    As stated, the Commission was transferred by Executive Order from the Department of Local Affairs
    to the Community Colleges of Colorado in January 1998. Accounting records prior to the transfer
    remain with the accounting department of DOLA. Nonetheless, all of the financial reports requested by
    KPMG for the 1996-1997 program year and the years thereafter were provided to the auditors.
    (Specifically, the auditors requested financial reports for 1996-1997 for Larimer County Employment
    and Training Services and for Volunteers of America. All financial reports for each reporting quarter
    were provided for these programs for the 1996-1997 program year.) The Commission does indeed have
    financial reports on its subgrantees for AmeriCorps formula and competitive subgrantees for the 1996-
    1997 program year. However, the Draft Report is correct in noting that financial reports from the years
    prior (1994-1995 and 1995-1996) were retained by the Department of Local Affairs and are likely filed
    with the Colorado Division of Archives.

Evaluatine and Monitoring Submantees
1. Review of OMB Circular A-133 Audit Reports
    Response:
    The Draft Report indicates that the Commission obtains A-133 reports but does not document that the
    reports are in fact reviewed nor does the Commission document follow-up procedures performed. Much
    of this is due to the fact that subgrantee A-133 reports have not had substantial findings in relation to the
    administration of the AmeriCorps program. However, the Commission has revised its protocol for
    tracking subgrantee A-133 audits and will be more proactive in documenting that the reports are
    reviewed and followed-up on as may be necessary.

2. Insufficient Documentation to Support Procedures Performed During Site Visits
    Response:
    The Draft Report indicates that the Commission was unable to locate 1 of the 13 site visit checklists
    selected for testing (program year 1997-1998). The Commission is unclear which checklist was missing
    and KPMG was not able to clarify which one was missing when asked during the exit interview on
    December 6, 2000. Further, the Draft Report does not indicate which specific one was missing. The
    Commission was unaware during the pre-audit survey that a checklist was missing. If KPMG could
    identify for us the requested checklist, the Commission may be able to provide the needed information.

    The Draft Report indicates that the Commission checklist is brief. The site visit checklist, in fact,
    contains a detailed review of:
        Member Documentation
                signed enrollment forms
                change of status forms
                signed end of term forms
                appropriate justification in files of pro-rated education awards for compelling personal circumstances
                documentation on releases for cause
                documentation on disciplinary action
                attendance and time records indicating hours commensurate with term of service and living stipend payment
                schedule
                program knowledge and compliance of the 80120 rule
                time sheets signed by members and supervisors
                program director tracking of member attendance
                regular meetings with program director and team
            docurnentat~onon tranlng of members
            documentat~onon member benefits ~nclud~ng    ch~ldcare el~giblllty.loan forbearance. heaith lnsurminsr. \rari\rri
            compensation. unemployment Insurance. FICA. Ilab~l~ty  coverage
            member appl~cat~on      for partlc~patlon
            s~gnedmember contracts
            program gnevance procedures
            code of conduct
            safety protocol
            posltlon descnpt~on
            parental consent for members under the age of 18
            background checks and cnmnal clearance informat~on
            W-4s on members for w~thold~ngs
            e m e r p c y notlficatlon forms
            publ~c~ty   release forms
            proof of education l e ~ e l
            proot of U S c~tlzensh~p
            s~gnedm d and end of year performance evaluat~onson each member
    Program Documentation
            rmssion statement
            annual objectives
            slte and agency agreements
            written policies for host sites
        *   evidence of meetings w ~ t hsite supervisors
            display of AmeriCorps s~gnage
            ev~denceof traming sites to understand membertstaff differentlation
            grant contract and provisions on file with program and financial staff
            documentation of staff training
            clarification of to whom the program director reports
            evaluation plan and evaluation tools
            progress reports
            demograptuc data
            member and site satisfaction surveys as may be appropriate
            on-line connection
            national identity evidence such as AmeriCorps uniforms, signage, and logos
            evidence of community collaboration and mechanisms for community input
            subcontracts if applicable
    Fiscal Documentation
            AmeriCorps transactions supported by original source documents
            invoices/vouchers signed and payments indicated
            staff time and attendance records
            approved staff local and long distance travel vouchers
            payroll system information on check disbursement of living allowances
            how living allowances are divided for payment
            member eligibility to receive living stipend
            cash match drawn consistently in payment of living stipends
            how donations of non-federal funds are received, expended, and accounted for
            how expenditures are tracked in accordance with budget line i t e m
            financial rewrts on file
            financial reports supported by accounting records
            regular deposits made of federal payroll income taxes and FICA
            fiscal records comparing actual expenses to budget to show available balance
            bank statements reconciled monthly by someone other than the fiscal agent
            checks signed by someone not involved in the preparation of the checks
            federal and non-federal matchng fund accounts maintained separately
            cash and in-hnd accounts maintained separately
            fee-for-service mformation if applicable
            expenditures of program income used toward eligible program costs
            A-133audits

As is indicated in the Commission's Standard Operating Procedures, no formal report is written on a site
visit unless there are compliance issues to be addressed. Rather, verbal feedback is provided during the
visit to denote strengths and discuss continuous improvement issues. The checklist serves as the
feedback mechanism and written, verbal, on-site, and formal training and technical assistance are
provided based on the results of the visit. Programs with compliance issues to address are provided
formal feedback in writing. Depending on the nature of the compliance issue, this formal written
feedback is signed either by the appropriate programofficer or the executive director of the Commission.
Programs with compliance issues receive follow-up phone and written correspondence until the issue
is resolved. All materials related to site visits, including formal written feedback when compliance
issues are discovered, are kept in the program's file at the Commission.

The Draft Report indicates that the Commission does not document which specific member timesheets
and files were reviewed during visits, nor the results of the review. As previously indicated, if
compliance issues are discovered, the Commission does provide written feedback, as articulated above.
The Commission has not made it a practice to record the specific names of individuals whose files are
reviewed during a site visit. However, the Commission's overall written process for reviewing member
files is documented and replicable.

The Draft Report states that the Commission does not verify member timesheets against entry into Web-
Based Reporting System (WBRS). The WBRS system was not designed to be a method of proof of
member hours. The time sheet function within WBRS is a data management tool that makes the
aggregation of a members time a more streamlined and simple process for the purpose of reporting
program progress and exiting members. Further it is a data management tool for program staff to more
easily spot check the accrual of hours for their members. What is required of Commissions in terms of
monitoring a program is to ensure that the program keeps an actual hard copy of member time logs as
back-up documentation that an AmeriCorps member has in fact completed their hours. If the
Commission looked at an exit form and wanted back-up of a member's hours, the Commission would
examine the actual signed time logs, not the WBRS database for that proof. Further, the Web-Based
Reporting System was implemented in Colorado during the 1999-2000 program year. The Pre-Audit
Survey of the Colorado Commission was conducted prior to the end of the 1999-2000 program year, the
first year of WBRS for Colorado. The Commission could certainly add a component of comparing time
logs to data entry into WBRS to its site visit protocol should the Corporation for National Service make
that recommendation. However, the more definitive proof of hours would remain the actual signed time
sheet, not the WBRS time log data entry system.

The Draft Report states that the Commission does not document which operating sites were visited. The
Commission's subgrantees have only one legal applicant entity. Four of Colorado's subgrantees since
1994 have had multiple operating sites wherein member files are kept by multiple organizations. The
majority of Colorado's programs have only one operating site (that being the legal applicant entity). For
the purpose of site visits, the checklist (as well as all other documents pertaining to a site visit, such as
the site visit letter issued prior to the visit for confirmation and any appropriate follow-up) indicates
which program was visited. In the case of the four programs that have multiple operating sites wherein
files are kept in multiple places, the Commission's site visit materials (as specified above) do in fact
indicate which site was visited. While the Commission may visit with members during a site visit (that
being, visit with members at the location-- classroom, home, field, park, rec center, etc. -- where they are
performing service on that particular day), the "sites" the Commission visits are not necessarily indicated
on anything because those locations are not where official programmatic files are kept, nor is the nature
of those visits with members a formal review of files, but a more conversational meetinglcheck-
inlobservance of member activities. The Commission believes that this finding may be a
misunderstanding of the definition of "operating site". The Commission fully indicates the operating
site visited in its site visit records.

The Draft Report states that the Commission does not document its procedures to verify information in
subgrantee progress or financial reports. The Commission carefully reviews all reports from
subgrantees. Progress reports indicate progress against objectives, detailing measurement tools used and
data obtained. As indicated above (in the paragraph containing information about the site visit checklist),
evaluation data and tools are examined during site visits. Subgrantees submit several financial reports,
including a periodic expense report (formerly the match and expenditure report) that tracks expenditures
against specific line items of the approved budget, and a federal financial status report (that aggregates
information from the periodic expense report into a collapsed overall financial report). As indicated
above (in the paragraph containing information about the site visit checklist), financial reports are
    reviewed during site visits to ensure that information is supported by the organization's accounting
    records.

    The Draft Report states that "as a result, a reviewer of the site visit checklist is not able to (1) assess if
    the sample size selected was adequate and (2) review the same documentation if a question arose about
    the results of the test. In addition, control weaknesses or instances of material non-compliance related
    to the subgrantees' activities of which the Commission is not aware may exist and may not be
    corrected.". It is not possible for the Commission to fully review every aspect and every detail of every
    program unless the Commission is to fully audit every aspect of every program and is provided with the
    resources to do so. The Commission is responsible for monitoring subgrantees to ensure that subgrantees
    are in compliance. The Commission has a written process for monitoring its subgrantees and that
    process is followed and documented. The Commission is in regular contact (at least weekly, and
    sometimes daily) with each and every one of its programs, which allows for additional informal
    monitoring of a program beyond a site visit. The Commission performs a spot check of member files
    for compliance, as well as a full review of relevant program and financial documentation. While a
    reviewer of a site visit could not exactly replicate a prior site visit, he or she could easily replicate the
    processes that are used in monitoring programs.

Other Matters
1. Implementation of WBRS
    Response:
    The Governor's Commission on Community Service is unclear why this matter is cited in the Draft
    Report since there is no recommendation, nor is the technical implementation of the Web-Based
    Reporting System a Commission function. The system was developed at the national level, with
    technical problems being resolved by the national provider and/or by the Corporation for National
    Service. That two of Colorado's programs experienced minor technical difficulties with one of the report
    functions during one of the reporting periods in the first year (1999-2000) of WBRS is not an issue over
    which the Commission had any control.

2. Composition of Commission
   Response:
    The Draft Report states that the Commission does not currently have youth representation within its
    voting members. The Commission is aware of this issue and has communicated this vacancy with the
    Governor's appointment secretary. The Commission has provided the Governor's Office with all
    applicable federal guidelines regarding the composition of the Commission prior to the selection of
    appointments.

3. Commission Staffing
   Response:
   The Commission is aware of its need for additional staff, including clerical support, to reduce the
    workload of current staff. Unfortunately, budget constraints do not allow the Commission to hire
    additional staff. Further, the Draft Report states that the Commission staff lack financial experience.
    On the contrary, the Commission is part of the Community Colleges of Colorado. The Commission's
    fiscal personnel through the Community Colleges of Colorado who perform most accounting related
    tasks for the Commission are fully qualified and experienced accountants. The Draft Report states that
    since "CCCS personnel do not participate in the review of grant applications or in site monitoring visi,ts...
   financial risks or noncompliance may not be adequately assessed." As stated, the Commission staff are
   part of CCCS. Therefore, all Commission staff conducting site visits are in fact CCCS personnel. While
    the accounting staff do not conduct on-site visits, they monitor subgrantees through budget reviews and
   financial reports. Further, the Commission's review process for the selection of subgrantees includes
   a highly qualified peer review process with experts in the areas of both program and grants management.
    Commission staff conducting site visits are highly qualified to perform the functions required of them.
                                                                               Appendix D


Memorandum
                                                                                                           CORPORATION
PO:

THROUGH:                  William Anderson. Deput) Chief

FROM:                     Peter Heinaru. Director. AmeriCo

SUBJECT:                  Comments on the OIG Draft Report 01-25. Pre-Audit Surveq of
                          the Colorado Governor's Commission on Community S e n ice

DATE:                 April 1 1. 200 1
We hate re\ iemed the draft report of the pre-audit survey of the Colorado Go\ ernor's
Commission on Community S e n ice and are pleased to note that the Colorado
Commission:

        +    Currently administers an open. competitive process to select national senice
             grantees:
        +    Has established control policies and procedures to administer the
             Corporation's grant funds: and
         +   Has established procedures to evaluate and monitor subgrantees.

This letter serves as the Corporation's response to the review of the four major areas:
Selecting Subgrantees, Administering Grant Funds, Evaluating and Monitoring
Subgrantees und Other Mutters. The report contains nine findings and seven
recommendations. This response comments on several of the key issues identified.

Our response addresses two areas of improvement identified regarding the Commission's
process for Selecting Sub~rantees.The report recommends that the Colorado
Commission develop and implement pre-award procedures to review each applicant's
financial and management systems. The report also recommends that the Commission
close a11 appropriate grants and submit final FSRs for those grants as well as be able to
retrieve necessary documentation for three years after the close of the grants.

The Commission asserts that it performs pre-award fiscal reviews and pre-award site
visits as necessary. We will follow up ~viththe Colorado Commission to review their
s)stem. Regarding the grant closeout recommendation. the Commission and Corporation
are currently in the process of closing prior grants.

In the section. Evaluatin~and Monitoring Subgrantees, t u o areas of impro\,ement
\\ere identified. Concerning the finding on Re\-ie\i. of'O.lfB CC'irculurA-133 .-lzrtlii             1201 New York .Avenue.
                , Commission states that it has appropriately re\ie\\ed A- 133 audits in the
R c p o r t . ~ the                                                                                  Washington. 0 5 2 0 5 2 5

past: ho\\e\.er it has changed its protocol to document this r e \ . i e ~of .A-1 3 3 audit reports. Telephone ?02-6&.5W)
The Corporation will follow-up with the Colorado Comn~issionto assure that procedures
are documented.

The second finding under Evaluation and Monitoring addresses the Insujficienr
Documentation to Support Procedures Preformed During Site C'isits While we support
adequate site visit monitoring. documentation and follow-up. the Corporation does not
agree uith the audit techniques and standards suggested in this recommendation for
program site visit reviews. The Corporation advocates a risk-based strategy for
monitoring of programs that considers experience. organizational history and past
performance. including both programmatic and financial elements. The Corporation will
review the system in place at the Colorado Commission to assure that their monitoring
strategy for subgrantees is risk-based and adequate.

In the final section Other Matters. the report presents three findings and two
recommendations. Regarding the Composition of the Commission. the Colorado
Commission is awaiting approval from the Governor's office for the appointment of a
youth commissioner.

The Corporation concurs that the Colorado Commission should ha\.e access to financial
expertise when needed. We will follow up with the Commission staff to determine
feasible options to assure that the Commission has access to qualified financial resources
as needed.
